A. Scott Johnson

 

] en i JOHNSON HANAN VOSLER Alexander C. Vase
Kari A. Hawthorne
HAWTHORNE & SNIDER iSian'b. Eniites
Erin Blohm Clark
Anthony C. Winter
9801 North Broadway Extension. Austin J. Young
Oklahoma City, OK 73114
405.232.6100 P 405.232.6105 F Meilani C. Kaaihue
Tara M. Penick
John W. Toal
Vanessa O. Martinez
Whitney E. Guild
+ Also Licensed in Kansas
May 12, 2021
Scott S. Harris
Chief Deputy Court Clerk

Supreme Court of the United States
Washington, DC 20543

Re: Faye Strain v. Vic Regalado, et al., No. 20-1562

Dear Mr. Harris,

Pursuant to Supreme Court Rule 30.4, Respondents Armor Correctional Health Services,
Inc.; Curtis McElroy, D.O.; Patricia Deane, LPN; and Kathy Loehr, LPC respectfully request a 30-
day extension of time in which to file their response to the certiorari petition in this case. Petitioner
filed a petition for writ of certiorari on May 7, 2021. The current due date for Respondents’ brief
in opposition is June 10, 2021, and a 30-day extension would create a new due date of July 12,
2021.

This request is not made for the purposes of delay; but is instead necessary so that we may
carefully consider and respond to the arguments raised in the petition and due to the press of other
business, including upcoming trials.

Thank you for your consideration of this request.

Sincerely,

Sean P. Snider
